          U.S. Department of Energy
          Office of Inspector General
          Office of Audits and Inspections




Special Inquiry
Alleged Mismanagement of the
Department of Energy's Executive
Protection Operations




INS-SR-13-02                        April 2013
                                  Department of Energy
                                    Washington, DC 20585

                                          April 15, 2013


MEMORANDUM FOR THE SECRETARY



FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Special Inquiry on "Alleged Mismanagement of the
                         Department of Energy's Executive Protection Operations"

BACKGROUND

The Office of Special Operations (Special Operations) has primary responsibility for the
protection of the Secretary of Energy and other executive personnel as designated by the
Secretary. Special Operations, a part of the Office of Health, Safety and Security (HSS),
employs special agents charged with managing executive protection operations. These special
agents apply tactics, techniques and procedures designed to protect an individual from physical
assault or harm. Special Operations agents are augmented by Office of Secure Transportation
(OST) agents while the Secretary is on travel status, and in coordination with HSS Headquarters
Security Police Officers (SPOs) when in the Headquarters building.

The Office of Inspector General (OIG) received allegations of mismanagement of the
Department of Energy's Executive Protection forces. The complaints were varied but generally
fell into the following categories: (1) ineffective executive protection policies and procedures;
(2) compromised performance assurance tests; (3) inadequate training; (4) mismanagement of
resources, such as failure to provide appropriate body armor; and (5) lack of implementation of
recommendations for improvement. It was also alleged that the Department's Office of the
General Counsel failed to provide clarification on legal authority and firearms policy, despite
frequent requests.

We initiated an inspection to review the facts and circumstances surrounding the allegations.
The Chief Health, Safety and Security Officer also requested that we conduct an independent
review of these matters. One element of the allegations involved reported misuse of premium
class travel by the Deputy Secretary. That allegation was reviewed separately but was not
substantiated. The results of our review of that matter were reported separately in January 2013.

RESULTS OF INSPECTIONS

While certain aspects of the allegations were substantiated, the evidence did not support a
number of concerns that had been raised. However, perhaps of greatest importance, the Special
Operations agents generally described their work environment as one permeated by low morale.
                                                 2


We noted that:

   •   With regard to policy and procedures, since 2010 Special Operations, in coordination
       with various Department program offices, had worked on updating its 2006 procedures
       for security operations. Many of the procedures governing critical operations were
       completed in July 2012. Despite the fact that agents appeared to have been provided
       drafts of procedures and given the opportunity to provide comments, a number of agents
       told us that they lacked working knowledge of the procedures. We were unable to
       reconcile the conflicting evidence of agents' involvement in policy and procedure
       development.

   •   Special Operations management officials told us that they misinterpreted the no-notice
       requirements for Fiscal Years 2011 and 2012 Performance Assessment Tests, resulting in
       the inadvertent compromise of the tests. Special Operations officials indicated that they
       considered the tests to be training opportunities and had taken action to guide agents in
       responding to questions. The HSS evaluator who administered the tests reported to
       senior Special Operations officials that the agents had demonstrated competency in the
       tested areas even though the agents had either not completed portions of the tests and/or
       they lacked requisite knowledge. We could not determine the evaluator's rationale
       behind the misinformation provided to the Special Operations officials.

   •   Certain operational training had not been completed. However, we found that the agents
       had undergone significant training. Further, collaborative training exercises involving all
       elements of Federal protective forces, Special Operations, OST, and SPOs had also not
       been completed. The benefits of such training are consistent with principles set forth in
       existing Department training regulations. Notably, the agents we interviewed viewed this
       sort of training as something that could help ensure cohesive operations in the event of an
       emergency.

   •   Individual purchases of body armor were not made between 2007 and 2012. Yet, in
       mid-2012, management purchased such armor for agents. The purchases were made
       following an anonymous complaint filed with the Occupational Safety and Health
       Administration in February 2012. We found that management had provided informal
       guidance to agents regarding the use of such armor.

We did not substantiate a number of other specific allegations involving issues such as
inadequate management and use of resources, and failure to complete recommended actions. In
addition, we did not substantiate the allegation that the Department's Office of the General
Counsel failed to provide clarification on legal and firearms authority, despite frequent requests.
Information regarding specific elements of the allegations that were not substantiated is
summarized in the body of the attached report (see Appendix 1 of the report for a complete
listing of the allegations).

During the course of our review, it became clear that morale among many members of the
Special Operations staff was low and that there appeared to be a lack of trust between the agents
and management. Agents told us that there was an apparent unwillingness to work together to
resolve differences of professional opinion. On these and other related issues, we were also
                                                 3


provided information by the respective parties that was inconsistent and, at times, contradictory.
Positions were often irreconcilable. For example, we were unable to get agreement on whether
the problems that had been alleged, even if confirmed, represented a significant risk to the
Department's Executive Protection Program. In short, there was little doubt that the morale and
trust issues influenced many of the concerns brought to our attention.

Additionally, it became clear that there are certain institutional issues that make management of
the Department's Executive Protection Program a challenge. Most prominently, given the nature
of the mission and the limited number of executives afforded protection, Special Operations
relies on a relatively small, core professional staff. Inherently, this limits opportunities for
promotion to management positions, the availability of rotational assignments and the size and
scope of in-house training. Further, as noted, at times, the current structure requires the
augmentation of the Executive Protection staff with OST agents. While our review did not link
specific failures to these institutional issues, we concluded that the issues contributed to
dissatisfaction among the agents.

During the course of our review, we found that HSS had taken action in the recent past to help
resolve issues with agents' concerns and morale. In particular, in 2012, HSS commissioned an
independent review of Special Operations. That review identified a number of recommended
corrective actions, most of which Special Operations management officials indicated had been
implemented. During our inspection, we specifically noted that corrective actions relating to the
development of an executive protection manual, assignment of an intelligence coordinator and
training coordinator and the maintenance of a medical profile for the protectee, were among
those that had been implemented. Management elected not to implement two recommendations
regarding the creation of an ombudsman position and development of a counter surveillance
program. We were told that the Department has a general ombudsman who is currently available
to the agents and that Special Operations does not have the required resources to implement a
counter surveillance program.

Finally, executive protection is vital to the functioning of the Department and its critical mission
objectives. For those reasons, as difficult as cultural changes can be, we believe that
management should intensify its efforts to address the concerns raised by Special Operations
agents ensuring that the executive protection function is operating as effectively as possible. As
such, we made several recommendations designed to help address the issues outlined in this
report.

MANAGEMENT REACTION

Management concurred with the recommendations in the report. Specifically, the Chief Health,
Safety and Security Officer (Chief) agreed to take action to develop a new Performance
Assurance Program that will afford agents the opportunity to review and comment on the plan
prior to it being finalized. Further, the Chief agreed to develop an annual training list for all
collaborative training including COOP training for the agents. Finally, the Chief indicated that a
recent independent evaluation of the organizational and safety culture of the HSS organization
                                               4



identified areas of improvement, including aspects of HSS employee morale. As appropriate, we
modified our report to address other technical comments from management. The comments
provided by HSS are attached in their entirety in Appendix 5.

Attachment

cc:   Deputy Secretary
      Chief of Staff
      Acting Administrator for the National Nuclear Security Administration
      Chief Health, Safety and Security Officer
      General Counsel
REPORT ON ALLEGED MISMANAGEMENT OF THE DEPARTMENT OF
ENERGY'S EXECUTIVE PROTECTION OPERATIONS


TABLE OF
CONTENTS

Alleged Mismanagement of the Department of Energy's Executive Protection Operations

Details of Finding                                                                    1

Recommendations and Comments                                                          9


Appendices

1. Allegation Matrix                                                              11

2. 2012 Guidance for Executive Protection Operations                              13

3. Objective, Scope and Methodology                                               14

4. Prior Reports                                                                  16

5. Management Comments                                                            17
ALLEGED MISMANAGEMENT OF THE DEPARTMENT OF ENERGY'S
EXECUTIVE PROTECTION OPERATIONS
                                    Only certain components of the allegations were substantiated. We
                                    found that the Office of Special Operations (Special Operations)
                                    management completed specific executive protection procedures
                                    for a number of critical operations in July 2012. Additionally, we
                                    learned that there had been a compromise of Performance
                                    Assessment Tests for Fiscal Years (FY) 2011 and 2012, and that
                                    the test results had been inaccurately reported to Special
                                    Operations management at the time. We also noted that certain
                                    individual operational training and collaborative training exercises
                                    involving all elements of protective forces, Special Operations,
                                    Office of Secure Transportation (OST), and Security Police
                                    Officers (SPOs) had not been completed. Further, although
                                    individual body armor purchases were not made during the period
                                    of 2007 to 2012, we found that management had recently
                                    purchased body armor for agents and provided informal guidance,
                                    through email correspondence, regarding the use of such armor.

                                    We did not substantiate a number of other, specific, detailed
                                    allegations involving issues such as inadequate management of
                                    resources and failure to implement recommended actions from an
                                    external review of Special Operations activities. In addition, we
                                    did not substantiate the allegation that the Office of the General
                                    Counsel (GC) failed to provide clarification on legal and firearms
                                    authority, despite frequent requests. Information regarding other
                                    specific elements of the allegations is summarized in Appendix 1
                                    of this report.

                                                         Executive Protection Procedures

                                    Special Operations management, in coordination with various
                                    Department program offices, had been working on updating the
                                    2006 procedures for security operations since 2010; however, it did
                                    not complete specific procedures for a number of critical
                                    operations until July 2012. The specific procedures in question,
                                    which are enumerated in Appendix 2, included active shooter 1
                                    response, fire evacuation, direct threat to principal, medical
                                    emergency, security room operations, motorcade operations, and
                                    bomb threats. Department Order 473.3, Protection Program
                                    Operations, requires Special Operations, and other Federal
                                    protective forces, to have written procedures covering
                                    emergencies, protection strategies, tactical response, and other


1
 Active shooter is defined as an individual actively engaged in killing or attempting to kill people in a confined and
populated area; in most cases, active shooters use firearms(s) and there is no pattern or method to their selection of
victims.
______________________________________________________________________
Page 1                                                  Details of Finding
                                    operational requirements. 2 Until July 2012, there were no specific
                                    procedures on certain executive protection operations. We
                                    determined that specific procedures were finalized in July 2012
                                    pertaining to fire evacuation, security room operations and bomb
                                    threats. We also determined that in October 2012, an Executive
                                    Protection Guide (Guide) was completed to provide procedures on
                                    the remaining executive protection operations — active shooter
                                    response, direct threat to principal, medical emergency and
                                    motorcade operations. This guide was disseminated to agents in
                                    late October 2012.

                                    Management officials told us that they had taken actions to
                                    complete the procedures and disseminated them to all agents
                                    shortly after they were completed. However, more than half the
                                    agents (13 Special Operations and 3 OST) we interviewed told us
                                    that they did not have a working knowledge of the July and
                                    October 2012 procedures. Agents told us that they did not have
                                    adequate knowledge of the procedures despite the fact that the
                                    drafts were distributed via email to each of the agents as they were
                                    being developed. The communications from management
                                    distributing the drafts specifically asked agents to review and
                                    provide comments and/or recommendations for change to the
                                    proposed updates of the 2006 procedures. In summary, the agents'
                                    testimonies appeared to be inconsistent with the evidence provided
                                    by management in this regard.

                                                           Performance Assurance Tests

                                    Our inspection revealed that HSS officials inadvertently
                                    compromised FY 2011 and FY 2012 Duress Alarm Response
                                    Assessment Performance Tests (Tests) designed to assess the
                                    agents' ability to respond to threats. OSO officials acknowledged
                                    misinterpreting the no-notice requirements for these tests. The
                                    HSS evaluator administering the Tests also reported to senior
                                    Special Operations officials that the agents had demonstrated
                                    competency in the tested areas, when in fact the agents had either
                                    not completed portions of the test or lacked the requisite
                                    knowledge. Department Order 473.3 requires Federal protective
                                    forces, including agents providing executive protection, to
                                    participate in exercises and performance tests as established in the
                                    HSS Performance Assurance Program (Program). As a part of the
                                    Program, Special Operations agents are required to participate in

2
 Federal protective force (including Special Operations agents) are those used in either an armed or unarmed status
for the purpose of protecting and/or investigating offenses against Department assets including facilities, personnel,
sensitive materials and other property.
______________________________________________________________________
Page 2                                                  Details of Finding
                      performance tests annually without advanced notice. These Tests
                      are administered using a pass/fail question format, and were
                      designed to be used to ensure agents have a readiness posture that
                      reflects effective communications, rapid response, and credible
                      executive protection. The Program requires a trusted agent to treat
                      information regarding the Test as propriety information that should
                      not be shared with Test participants.

                      Contrary to these requirements, we were told that Special
                      Operations management notified agents of an upcoming Test
                      the day prior to its actual administration. For example, an agent
                      told us that in preparing for the 2011 Test, Special Operations
                      management conducted a pretest regarding the functions of the
                      security operations room to assist them in passing the Test.
                      During our inspection, Special Operations management officials
                      confirmed that they notified agents of the Test in advance and
                      indicated that there were no internal Standard Operating
                      Procedures (SOPs) for implementing security room operations
                      at the time the 2011 Test was administered. Special Operations
                      management also informed us that the "pretest" was considered
                      to be a method of training the agents.

                      In another example of a compromised Test, two agents told us
                      that during the FY 2012 Test, they notified the HSS evaluator
                      that they [the agents] lacked knowledge of all security room
                      operations and did not have a copy of the Security Room SOP.
                      The agents then indicated that the HSS evaluator coached them
                      or provided answers during the test and gave them a copy of the
                      draft Security Room SOP, providing specific alarm response
                      procedures. When we discussed this matter with the HSS
                      evaluator, the official indicated that the agents were not
                      coached but were provided guidance, including a copy of the
                      procedures. Another senior Special Operations official
                      indicated that he would be concerned that the agents were
                      coached or notified of the test in advance, because those actions
                      would remove the element of surprise.

                      In addition, we noted that based on information provided by test
                      participants, the results of the FY 2011 and FY 2012 Tests
                      appeared to have been inaccurately reported in the Headquarters
                      Security Performance Assurance Program Evaluation Report:

                         •   Command and Control: The HSS evaluator's comments
                             identified two agents participating in the FY 2011 Test;
                             however, we determined that only one agent participated

______________________________________________________________________
Page 3                                                  Details of Finding
                             in the Test. However, the Test response indicated that
                             "one agent assessed the situation and directed the
                             other agent to maintain assessments, communications
                             and notifications to security operations management"
                             [emphasis added]. We brought this matter to the
                             attention of the HSS evaluator who could not recall
                             whether a second agent was present during the Test.

                         •   Response Time: The FY 2012 Test results indicated
                             that the agents responded within the allotted time and to
                             the correct location as outlined in the Executive
                             Protection Response and Evacuation Plan (Evacuation
                             Plan). However, during our interviews, the two agents
                             tested indicated that they had no knowledge of the
                             Evacuation Plan or the specific response time required.
                             The HSS evaluator who conducted the Test indicated
                             that the response time was classified, but that the agents
                             should have known this information.

                         •   Tactical Movement: The response in the FY 2012 Test
                             indicated that the agents demonstrated a walkthrough
                             cover and concealment configuration of the corridors
                             and office space. However, during our interview with
                             the HSS evaluator, the official stated that the agents did
                             not demonstrate the walkthrough because the exercise
                             was discontinued due to visitors in the vicinity. Further,
                             the agents indicated that the Test was administered in a
                             question and answer format, and as a result, did not
                             include a walkthrough. Thus, both the agents and the
                             HSS evaluator confirmed that there was no
                             walkthrough, although the Test results indicated a
                             walkthrough occurred.

                         •   Use of Closed Circuit Televisions: Agents in
                             Headquarters use closed circuit televisions to monitor
                             activity within executive office spaces. During the
                             FY 2012 Test, one agent provided an incorrect response
                             to a question regarding the appropriate first response to
                             an alarm activation. The agent indicated that the HSS
                             evaluator coached him on the proper course of action to
                             take upon activation of alarms. Our examination of the
                             reported test results, however, revealed that the HSS
                             evaluator indicated that the agent provided the
                             appropriate response to the test question.



______________________________________________________________________
Page 4                                                  Details of Finding
                      In response to an earlier draft of this report, management indicated
                      that "the ultimate determination of competency made by the tester
                      was based both on a verbal response to questions dealing with
                      procedures for responding to a duress alarm and the demonstration
                      of responses." Further, management stated that the pass/fail
                      determination was based on the tester's assessment of the Special
                      Agent's knowledge and skills. However, our review revealed that
                      both the agents who tested and the HSS evaluator indicated that the
                      test was question and answer format with no demonstration of
                      actions. Based on our review, the pass/fail determination was
                      based on advanced Test notice, coaching and providing written
                      SOP to the agents. As a result the agents' knowledge and skills set
                      may not have accurately determined pass/fail.

                      The issues we identified with the compromised Tests and
                      inaccurate reporting reduced Special Operations management's
                      ability to effectively measure the agents' knowledge regarding
                      certain emergency response activities.

                                     Training and Collaborative Exercises

                      Although agents had undergone what was, in our judgement,
                      significant training, we noted that certain operational training for
                      individual agents had not been completed. Further, as alleged,
                      collaborative training exercises involving all elements of Federal
                      protective forces, Special Operations, OST, and SPOs had not been
                      completed. Such training is consistent with principles set forth in
                      the Department's regulation to help ensure cohesive operations.
                      Department Order 473.3 indicates that training and exercises must
                      be conducted for the purpose of achieving and maintaining skills
                      and assessing individual and team competency levels. Contrary to
                      this requirement, we determined that agents had not received
                      certain individual training.

                      Our inspection revealed that the agents received individual
                      operational training regarding active shooter response, defensive
                      driving, direct threat to principal and medical emergency at the
                      Federal Law Enforcement Training Center as well as other training
                      sources. However, we did not find any evidence of training for fire
                      evacuation, bomb threats, and security room operations.
                      Management informed us that due to scheduling conflicts, agents
                      are unable to readily train or exercise these functions and that those
                      agents know the evacuation routes and should rely on their
                      previous experience to effectively perform their duties. Special
                      Operations agents confirmed that they would rely on their previous
                      experiences concerning these operations (fire evacuation, bomb

______________________________________________________________________
Page 5                                                  Details of Finding
                      threats, and security operations). Department Order 473.3,
                      however, requires that agents have individual training to maintain
                      their skills and abilities.

                      The agents also expressed concerns that there had been a lack of
                      collaborative training with OST and SPO personnel to ensure a
                      consistent response to security incidents. Their concerns were
                      based on the premise that each group, and in some instances,
                      individuals were trained to respond differently during security
                      operations and situations. Specifically, Special Operations agents
                      indicated that they had reservations about OST agents' and SPOs'
                      responses to threats, thereby potentially endangering themselves or
                      others while protecting the Secretary. As noted in the
                      Department's training order, collaborative or joint training is
                      helpful in ensuring team competency levels.

                      Regarding the Continuity of Operations Program (COOP), the
                      agents told us that they are aware of COOP and have completed
                      the annual computer-based COOP training, as required. However,
                      agents expressed concerns regarding a proper response to a COOP
                      situation because they had not participated in COOP exercises.
                      Also, agents told us that although they are aware of the Alternative
                      Operating Facility (AOF), they would not know the exact location
                      because they had not physically visited the AOF. Further,
                      Department Order 150.1, Continuity Programs, requires the
                      development and implementation of a COOP training, testing, and
                      exercise (TT&E) program to assess, demonstrate and improve the
                      Department's ability to respond to a continuity event. Contrary to
                      the Order, we noted that Special Operations' Continuity of
                      Operations Implementation Plan, HS-94, (COOP Plan) June 2012
                      excluded details for ensuring TT&E within Special Operations.
                      We noted that the HSS COOP Plan established a TT&E program,
                      which required training and exercises for all HSS staff. However,
                      Special Operations agents indicated that they have not participated
                      in COOP training or exercises. Further, agents that perform
                      essential functions must participate in individual and team training
                      on an annual basis to familiarize essential personnel with alert,
                      notification and deployment procedures, and to ensure that COOP
                      plans are implemented accordingly.

                                        Issuance/Usage of Body Armor

                      We determined that body armor was not acquired for agents hired
                      between 2007 and 2012 until an anonymous complaint was filed
                      with the Occupational Safety and Health Administration (OSHA)
                      in February 2012. In response to the OSHA complaint, Special

______________________________________________________________________
Page 6                                                  Details of Finding
                      Operations management indicated that in consultation with the
                      Department's HSS officials, they had determined that body armor
                      was warranted for use in designated high threat areas or when the
                      agent determined that the use of body armor was warranted. As
                      such, in August 2012, Special Operations management purchased
                      eight non-custom fitted vests in various sizes. Management had
                      provided an informal policy, through email correspondence,
                      regarding when to use such armor.

                      During our interviews, Special Operations agents informed us that
                      they were not aware the body armor was available until August
                      2012, when the body armor was first received. The agents also
                      indicated that management purchased vests in various sizes versus
                      custom fitted vests, equipment that maximizes comfort and
                      ballistic stoppage capability. We noted that there are 8 non-custom
                      fitted vests for 13 Special Operations agents. We were told by
                      Special Operations management that they opted to acquire various
                      sizes of non-custom fitted vests in lieu of custom fitted vests due to
                      the high attrition rates of agents and replacement costs for the
                      vests. In response to an earlier draft of this report, OSO
                      management indicated that although three agents checked out the
                      vests, the agents did not utilize the vests. We did not confirm this
                      information with the agents.

                                         Legal and Firearms Authority

                      We did not substantiate the allegation that the Department's GC
                      did not provide clarification of legal authority, scope of authority,
                      or firearms authority despite frequent requests.

Legal Authority       Our review found that Special Operations management had
                      requested and received comments from GC on Special Operations
                      draft policies and procedures. Additionally, Special Operations
                      management had requested that GC provide clarification regarding
                      the Law Enforcement Officer Safety Act's (LEOSA) application to
                      agents in Special Operations. Specifically, the concern was
                      whether off duty Special Operations agents were authorized to
                      carry personal firearms under LEOSA. At the time of our review,
                      GC and Special Operations had not resolved the matter.

Scope of Authority    Further, we noted during the course of our inspection that Special
                      Operations management was seeking a legislative change to allow
                      agents to provide armed protection without deputization authority
                      from the United States Marshals Service. We noted that this issue
                      was also raised during the external review of Special Operations, a
                      situation that Special Operations management is currently

______________________________________________________________________
Page 7                                                  Details of Finding
                      addressing through collaboration with a government-wide working
                      group on protective services. GC informed us that while it may
                      provide comments or guidance on requests for this amendment, it
                      will not be involved in the decision to enact the legislation.

Firearms Authority    In addition, we were informed by senior GC officials that they had
                      reviewed Special Operations' SOP regarding agents carrying duty
                      firearms off duty and found that the practice appeared to be
                      prohibited by Special Operations policies. We were informed by
                      GC officials that they referred this matter to HSS management and
                      HSS made a decision not to authorize the agents to carry duty
                      firearms off duty.

CONTRIBUTING          During the course of our review, it became clear that morale
FACTORS AND           among several members of the Special Operations staff was
IMPACT                low and the environment suffered from what appeared to be a lack
                      of trust. There was, what was described to us as, an unwillingness
                      to work together to resolve differences of professional opinion.
                      We were faced with testimony and evidence provided by the
                      respective parties that was inconsistent, often contradictory and, at
                      times irreconcilable. For example, we were unable to get
                      agreement as to whether the problems that had been alleged, even
                      if confirmed, represented a significant risk to the Department's
                      Executive Protection Program. In short, there was little doubt the
                      present atmosphere was at the center of many of the concerns
                      brought to our attention.

                      Additionally, it became clear that there are certain systemic issues
                      that make management of the Department's Executive Protection
                      Program a challenge. Most prominently, given the nature of the
                      mission and the limited number of executives afforded protection,
                      Special Operations relies on a relatively small, core professional
                      staff. Inherently, this limits opportunities for promotion to
                      management positions, the availability of rotational assignments,
                      and could impact the size and scope of in-house training. Further,
                      as noted, at times, the current structure requires the augmentation
                      of the Executive Protection staff with OST agents. While our
                      review did not identify specific failures tied to the institutional
                      issues, it was our observation that these issues contributed to the
                      general atmosphere.

                      During the course of our review, we did find that HSS had taken
                      action in the recent past to help resolve issues with agents'
                      concerns and morale. In particular, HSS commissioned an
                      independent review of Special Operations. That review identified
                      a number of recommended corrective actions, most of which

______________________________________________________________________
Page 8                                                  Details of Finding
                      Special Operations management officials indicated had been
                      implemented. During our inspection, we noted that corrective
                      actions relating to the development of an executive protection
                      manual, assignment of an intelligence coordinator and training
                      coordinator, and the maintenance of a medical profile for the
                      protectee, were among those that have been implemented.
                      Management elected not to implement two recommendations
                      regarding the creation of an ombudsman position and development
                      of a counter surveillance program. We were told that the
                      Department's ombudsman position is currently located in the
                      Forrestal Building and that Special Operations does not have the
                      required resources to implement a counter surveillance program.

                      Finally, executive protection and the role of Special Operations are
                      vital to the functioning of the Department and its critical mission
                      objectives. For those reasons, as difficult as cultural changes can
                      be, we believe that management should intensify its efforts to
                      address the concerns raised by Special Operations agents ensuring
                      that the executive protection function is operating as effectively as
                      possible. As such, we made several recommendations designed to
                      help address the issues outlined in this report.

RECOMMENDATIONS       To address the issues we identified in this report, we recommend
                      that the Chief Health, Safety and Security Officer:

                         1. Require responsible officials to ensure that performance
                            assurance tests are appropriately administered and
                            accurately reported;

                         2. Establish a process to ensure consistent and adequate
                            training and required COOP training for all agents,
                            including collaborative training with the Office of Secure
                            Transportation and Security Police Officers; and,

                         3. Establish a process to address agents' concerns regarding
                            morale and implement corrective actions, as necessary.

MANAGEMENT
COMMENTS              Management concurred with the three recommendations in the
                      report. Specifically, regarding Recommendation 1, the Chief
                      Health, Safety and Security Officer developed a new Performance
                      Assurance Tests Program to ensure that the Tests are appropriately
                      administered and accurately reported. Also, management
                      concurred with Recommendation 2, and stated that it is reviewing
                      training requirements and developing a training database to ensure


______________________________________________________________________
Page 9                                                  Details of Finding
                      that relevant training, including COOP, is conducted for all agents.
                      In addition, management is currently undertaking collaborative
                      training with Headquarters Protective Force. In response to
                      Recommendation 3, management indicated that an independent
                      evaluation of the organizational and safety culture of the
                      organization has been recently completed. The review identified a
                      number of areas for improvement, including morale. It is
                      management's belief that the review combined with the
                      Department's ombudsman program will assist in resolving
                      differences within the organization.




______________________________________________________________________
Page 10                                                 Details of Finding
      Appendix 1

                            Matrix for Showing Merit of Other Allegations

                                  Allegation
      Allegation Theme          Content/Thrust                               Disposition

1) Inadequate Management   Special Operations           An inspection of several medical bags maintained in
   and Use of Office of    management failed to         the security operations room, Special Operations
   Special Operations      provide basic safety         storage room and in three Secretarial vehicles
   (Special Operations)    equipment including          determined that life-saving equipment including
   Resources               updated medical              automated external defibrillators were current.
                           equipment.                   Special Operations management was advised,
                                                        however, that more generic and over the counter
                                                        medical solutions, including oxygen tanks were
                                                        found to be outdated by several years. Special
                                                        Operations management is in the process of taking
                                                        corrective actions.
                           Special Operations           A review of internal management correspondence
                           management failed to         revealed that there was adequate justification for the
                           manage and use long rifles   long guns currently assigned to Special Operations.
                           and related type firearms.

                           Special Operations           Special Operations management was found to have
                           management failed to         taken appropriate actions to mitigate concerns
                           manage and use secure        regarding interrupted radio
                           communications.              reception/communications within the Department's
                                                        Headquarters facility through the use of Local Area
                                                        Network lines and cell phones.

                           Special Operations           According to Special Operations management,
                           management failed to         senior Department officials requested that
                           manage and use law           motorcade operations be limited to one vehicle
                           enforcement vehicles         instead of three to conserve fuel consumption. Also,
                           especially those used        vehicles were assigned to two supervisory agents for
                           during motorcade             the purpose of providing immediate responses to the
                           operations.                  Secretary and Deputy Secretary after hours.
                                                        Another vehicle was assigned to an agent on detail
                                                        to the Joint Terrorism Task Force (JTTF).

                           Special Operations           According to separate memoranda of understanding,
                           management failed to         the agent, as well as other agents, were detailed to
                           manage and use personnel     JTTF and the Federal Law Enforcement Training
                           by exiling an unwanted       Center to enhance their knowledge, skills and
                           senior agent to multi-year   abilities; and also, to provide the agents with other
                           detail assignment.           investigative opportunities.




      ______________________________________________________________________
      Page 11                                                 Allegation Matrix
   Appendix 1 (continued)




                                     Allegation
      Allegation Theme             Content/Thrust                             Disposition
                            Special Operations            According to senior Special Operations
                            management failed to          management, there had been no request from the
                            manage and use personnel.     Secretary, Deputy Secretary, or their staff to
                            Specifically, two agents      prohibit certain individuals from providing
                            were not allowed to           protective duties.
                            perform assigned duties by
                            request of the Secretary,
                            Deputy Secretary and/or
                            staff, due to lack of
                            professionalism.

                            Cover-up by a Special         Special Operations was found to have conducted
                            Operations senior official    a formal review of the incident with an agent
                            of a drinking incident        drinking while on duty and initiated corrective
                            involving an agent while on   actions. HSS also conducted a formal review of
                            duty.                         an alleged management cover-up of the drinking
                                                          incident and concluded that no inappropriate
                                                          actions occurred.

2) Lack of implementation   Special Operations            Special Operations management was found to have
   regarding                management failed to          taken steps to address 9 of the 11 recommendations
   recommendations from     implement corrective          from an external review completed in June 2011 to
   an external review of    actions on                    examine the mission and functions of the Special
   Special Operations       recommendations made in       Operations. Specifically, Special Operations
   operations               an independent review of      management declined to develop a counter
                            Special Operations            surveillance capability indicating that the office
                            operations.                   does not have the required manpower to
                                                          implement such a program. Additionally, Special
                                                          Operations management declined to designate an
                                                          ombudsman to resolve internal complaints
                                                          indicating there are other avenues available
                                                          within the Department to address employees'
                                                          grievances.




   ______________________________________________________________________
   Page 12                                                 Allegation Matrix
    Appendix 2
                 2012 GUIDANCE FOR EXECUTIVE PROTECTION OPERATIONS
                                 (As of November 6, 2012)

                                                                              Familiarity with Policies
           Policy                      2012 Guidance                         (Special Operations/OST)
                                                                           Yes                     No
 Active Shooter               October 23, 2012 – Included in              1 OST                 5 Agents
 Response                     Executive Protection Guide                                      8 Supervisors
                                                                                                 2 OST
 Fire Evacuation              July 30, 2012 – Included in              1 Supervisor             5 Agents
                              Security Room Operations                    1 OST               7 Supervisors
                              Standard Operating Procedures                                      2 OST
                              (SOP)
 Direct Threat to             October 23, 2012 – Included in               1 OST                    4 Agents
 Principal                    Executive Protection Guide                                         8 Supervisors
                                                                                                     2 OST
                                                                                           1 Agent with No Response
 Medical Emergency            October 23, 2012 – Included in           1 Supervisor                4 Agents
                              Executive Protection Guide                  1 OST                  7 Supervisors
                                                                                                     2 OST
                                                                                           1 Agent with No Response
 Security Room                July 30, 2012                              2 Agents                  3 Agents
 Operations                                                            3 Supervisors             5 Supervisors
                                                                          1 OST                      2 OST
 Duress System                July 30, 2012 – Included in                2 Agents                  3 Agents
 Response                     Security Room Operations SOP             3 Supervisors             5 Supervisors
                                                                          1 OST                      2 OST
 Bomb Threat                  July 30, 2012 – Included in              1 Supervisor             5 Line Agents
                              Security Room Operations SOP                2 OST                  7 Supervisors
                                                                                                     1 OST
 Motorcade Operations         October 23, 2012 – Included in             3 Agents                   1 Agent
                              Executive Protection Guide               2 Supervisors             5 Supervisors
                                                                          2 OST                      1 OST
                                                                                           1 Agent and 1 Supervisors
                                                                                               with No Response

Note: The above referenced policies were updates to the 2006 Office of Special Operations Standards and Operating
Procedures, which covered the following topics: Organization and Structure, Law Enforcement Authority, Firearms,
Badge and Credentials, Use of Force, Administrative Procedures and Executive Protection Operations Plans and
Procedures.




    ______________________________________________________________________
    Page 13                                                       Guidance
Appendix 3

OBJECTIVE             The objective of this inspection was to determine the facts and
                      circumstances surrounding allegations related to the Office of
                      Special Operations (Special Operations) management. The
                      complaints were varied but generally fell into the following
                      categories: (1) ineffective executive protection policies and
                      procedures; (2) compromised performance assurance tests;
                      (3) inadequate training; (4) mismanagement of resources to
                      provide appropriate body armor; and (5) lack of implementation of
                      recommendations for improvement. It was also alleged that the
                      Department of Energy's (Department) Office of the General
                      Counsel failed to provide clarification on legal authority and
                      firearms policy, despite frequent requests.

SCOPE                 This allegation-based inspection was performed from November
                      2012 through February 2013, at Department Headquarters in
                      Washington, DC.

METHODOLOGY           To accomplish the inspection objective, we:

                          • Reviewed and analyzed Federal and Department
                            regulations, Department contracts, and pertinent
                            documents; and,

                          • Interviewed Department officials, Headquarters personnel,
                            current and former Special Operations agents, Office of
                            Secure Transportation agents, and Security Police Officers.

                      We conducted this allegation-based inspection in accordance with
                      the Council of the Inspectors General on Integrity and Efficiency's
                      Quality Standards for Inspection and Evaluation. Those standards
                      require that we plan and perform the inspection to obtain
                      sufficient, appropriate evidence to provide a reasonable basis for
                      our conclusions and observations based on our inspection
                      objective. We believe the evidence obtained provided a reasonable
                      basis for our conclusions and observations based on our inspection
                      objective. Accordingly, the inspection included tests of controls
                      and compliance with laws and regulations to the extent necessary
                      to satisfy the inspection objective. Because our review was
                      limited, it would not necessarily have disclosed all internal control
                      deficiencies that may have existed at the time of our inspection.
                      Finally, we relied on computer-processed data, to some extent, to
                      satisfy our objective. We confirmed the validity of such data,
                      when appropriate, by conducting interviews and analyzing source
                      documents.

                      We held an exit conference with management on April 15, 2013.
______________________________________________________________________
Page 14                                   Objective, Scope and Methodology
Appendix 4


                                     PRIOR REPORTS

  •   Inspection Report on Tactical Response Force Pursuit Operations at Idaho National
      Laboratory (INS-O-13-02, November 2012). The inspection was initiated to determine
      whether Idaho National Laboratory's Tactical Response Force was properly prepared,
      trained and equipped to execute its mission related to pursuit of suspects across
      jurisdictional lines. Our inspection revealed several weaknesses in coordination,
      communication and equipment that could, if not addressed, result in confusion and lead
      to injury of members of the public. Management concurred with the report's
      recommendations.

  •   Special Report on Review of the Compromise of Security Test Materials at the Y-12
      National Security Complex (DOE/IG-0875, October 2012). Following the July 28, 2012,
      security breach at the Y-12 National Security Complex (Y-12), the Department of
      Energy's (Department) Office of Health, Safety and Security (HSS) was tasked with
      conducting a comprehensive inspection of the site's security organization, which included
      both practical exercises and tests designed to evaluate the knowledge, skills and abilities
      of the site's Protective Force. Our inquiry was initiated to review the alleged compromise
      of the HSS inspection. Our inquiry confirmed that the security knowledge test, including
      answers to the test questions, had been compromised and that it had been distributed in
      advance of the test to numerous WSI-Oak Ridge (WSI-OR) Captains, Lieutenants, and
      Security Police Officers, the very people whose knowledge was to have been evaluated as
      part of this process. Specifically, despite the fact that the document was labeled as a test
      and was initially distributed via encrypted email to individuals appointed as "Trusted
      Agents," WSI-OR officials treated the document as if it were a training aid, mentioned its
      receipt at daily Protective Force supervisor meetings, and widely distributed it to a
      variety of officers. We made several recommendations that, if fully implemented, should
      help restore confidence in the integrity of the Department's protective forces.
      Management generally concurred with the recommended actions.




______________________________________________________________________
Page 15                                                    Prior Reports
Appendix 5

                      MANAGEMENT COMMENTS




______________________________________________________________________
Page 16                                           Management Comments
Appendix 5 (continued)




______________________________________________________________________
Page 17                                           Management Comments
Appendix 5 (continued)




______________________________________________________________________
Page 18                                           Management Comments
Appendix 5 (continued)




______________________________________________________________________
Page 19                                           Management Comments
                                                                    IG Report No. INS-SR-13-02


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message clearer to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.

Name __________________________________ Date ________________________________

Telephone ______________________________ Organization __________________________


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
